No. 19-27
In the

Supreme Court of the United States
__________________
MARK CHEESEMAN,
Petitioner,
v.
JOHN POLILLO, CHIEF OF THE GLASSBORO, NEW JERSEY
POLICE DEPARTMENT; AND KEVIN T. SMITH, SUPERIOR
COURT JUDGE, GLOUCESTER COUNTY, NEW JERSEY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Superior Court of New Jersey Appellate Division

__________________
BRIEF OF AMICUS CURIAE COALITION OF
NEW JERSEY FIREARM OWNERS IN
SUPPORT OF PETITIONER
__________________
Alan Alexander Beck
Law Office of Alexander Beck
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com

Stephen D. Stamboulieh
Counsel of Record
Stamboulieh Law, PLLC
P.O. Box 4008
Madison, MS 39130
(601) 852-3440
Stephen@sdslaw.us

Counsel for Amicus Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CORPORATE DISCLOSURE STATEMENT
The Coalition of New Jersey Firearms Owners is a
nonprofit corporation with no parent corporation, and
no publicly held corporation owns it stock.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
1. New Jersey’s URGENT NECESSITY requirement of
“specific threats or previous attacks” for 2C:58-4
permit issuance is neither “longstanding” or
“presumptively lawful.” . . . . . . . . . . . . . . . . . . . . 2
2. The theory of preventing the “known and serious
dangers of misuse and accidental use” was not
Legislative Intent. . . . . . . . . . . . . . . . . . . . . . . . 17
3. Any New Jersey claim that their URGENT
NECESSITY RULE is “presumptively lawful” and
“longstanding” is a mathematic impossibility. . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF AUTHORITIES
CASES
Burton v. Sills,
53 N.J. 86, 248 A.2d 521 (1968) . . . . . . . . . passim
District of Columbia v. Heller,
554 U.S. 570, 128 S. Ct. 2783 (2008) . . . 10, 11, 17
Drake v. Filko,
724 F.3d 426 (3d Cir. 2013) . . . . . . . . . . . . . 10, 22
In re Application of X,
59 N.J. 533, 284 A.2d 530 (1971) . . . . . . . . . 11, 19
In re Preis,
118 NJ 564 (1990) . . . . . . . . . . . . . . . . . . . . passim
In re Winston,
438 N.J. Super. 1 (Super. Ct. App. Div. 2014). . 22
Piszczatoski v. Filko,
840 F. Supp. 2d 813 (D.N.J. 2012) . . . . . . . . . . . 23
Reilly v. State,
59 N.J. 559, 284 A.2d 541 (1971) . . . . . . 11, 12, 19
Serv. Armament Co. v. Hyland,
70 N.J. 550, 362 A.2d 13 (1976) . . . . . . . . . . 24, 25
Siccardi v. State,
59 N.J. 545, 284 A.2d 533 (1971) . . . . . . . . passim
State v. Gratz,
86 N.J.L. 482, 92 A. 88 (1914) . . . . . . . . . . . . . . . 4

iv
State ex rel. Duncanson,
No. A-3318-14T2, 2016 N.J. Super.
Unpub. LEXIS 2222 (Super. Ct. App. Div. Oct. 7,
2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
STATUTES
Administrative Procedure Act,” P.L.1968, c.410
(C.52:14B-1 et seq.) . . . . . . . . . . . . . . . . . . . . . . . 12
L. 1966, c. 60. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
NJAC 13:54-2.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
N.J.S. 2A:151-1 et seq. . . . . . . . . . . . . . . . . . . . . . . . 25
NJSA 2A:141-44, now 2C:58-4. . . . . . . . . . . . . passim
N.J.S.A. 2A:151-44 . . . . . . . . . . . . . . . . . . . . . . . . 2, 16
NJSA 2C:58-2.6 . . . . . . . . . . . . . . . . . . . . . . . . . 12, 16
1 N.J.R 30 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
23 N.J.R 2251 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
OTHER AUTHORITIES
Assembly Chamber, State House, Trenton NJ.
March, 2, 1966 . . . . . . . . . . . . . . . . . . . . . . . . 7, 10
Crime Against Small Business: A Report of the
Small Business Administration. April 3, 1969.
Senate Document No. 91-14 . . . . . . . . . . . . . 20, 21
Final Report, National Commission on the Causes
and Prevention of Violence (1969) . . 15, 21, 25, 26

v
Hearings before the Committee on Ways and
Means, 89th Congress. First Session on
Proposed Amendments to the National Firearms
Act. July 1965. Part 1. US Govt. Printing Office,
Washington 1965 . . . . . . . . . . . . . . . . . . . . . . . . 23
HEARINGS BEFORE THE SUBCOMMITTEE TO
INVESTIGATE JUVENILE DELINQUENCY OF THE
COMMITTEE ON THE JUDICIARY. US Senate, 89th
Congress, First Session. US Govt. Printing
Office. Washington . . . . . . . . . . . . . . . . . . . 5, 6, 13
Knight, Michael. “Studies of Gun Law Divided on
Impact” New York Times. [New York] 21,
January 1981 . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
PROPOSED AMENDMENTS TO THE NATIONAL
FIREARMS ACT. January 4, 1965. Part 1. US
Govt. Printing Office, Washington 1965 . . . . . 5, 6
Sills Demand Curbs on Sale of Firearms, Asbury
park Evening Press, Thursday Dec. 5, 1963 . 3, 24
Sills Fights for Tougher Gun Laws, The (Red Bank)
Daily Register. March 11, 1965 . . . . . . . . . . 10, 25
Testimony of AG Sills PL 90-618 H.R. 510, 89th
Cong., 1st Sess. (1965) . . . . . . . . . . . . . . . . . . . 5, 6
Testimony of Victoria Bramson, Esq., Deputy
Attorney General, Division of Criminal Justice.
S UBCOMMITTEE ON A DMINISTRATION OF
FIREARMS STATUTES, ASSEMBLY JUDICIARY
COMMITTEE, New Jersey Legislature, State
House Annex, Trenton NJ 08625. Second Public
Hearing, Tuesday September 22, 1987 . . . . . . . . 3

1
INTEREST OF THE AMICUS CURIAE
The Coalition of New Jersey Firearm Owners
(“CNJFO”) is a New Jersey non-profit and a tax exempt
501(c)(3) non-profit organization.1 CNJFO was formed
to eliminate “justifiable need” in New Jersey and to
advocate for lawful, safe and responsible firearms
ownership in New Jersey. CNJFO strives to return to
the citizens of New Jersey the basic human right to
self-defense, a right that is guaranteed to all
Americans by the Constitution but denied to New
Jersey residents by the Executive, Legislative and
Judicial branches of New Jersey government.
SUMMARY OF THE ARGUMENT
New Jersey’s urgent necessity and justifiable need
scheme for allowing its citizens to carry pursuant to a
fundamental and enumerated right cannot stand.
First, the permit issuance based on urgent necessity is
neither longstanding nor presumptively lawful.
Secondly, New Jersey has perverted the legislative
intent of the Gun Control Law and, as currently
applied, does not comport with the legislative intent of
when it was passed. Thirdly, it is a mathematical
impossibility for New Jersey to claim that its scheme of
urgent necessity is presumptively lawful or
longstanding. For the following reasons, this Court

1

No counsel for any party authored this brief in whole or in part,
nor did any counsel or party make any monetary contribution
intended to fund the preparation or submission of this brief. All
parties’ counsel of record received timely notice of the intended
filing of this brief, and all consented to its filing.

2
should grant the Petition of Mark Cheeseman and
grant certiorari in this case.
ARGUMENT
1. New Jersey’s URGENT NECESSITY requirement
of “specific threats or previous attacks” for
2C:58-4 permit issuance is neither
“longstanding” or “presumptively lawful.”
In Siccardi v. State, 59 N.J. 545, 284 A.2d 533
(1971), the New Jersey Supreme Court would explain
that “(t)he constitutionality of the (Gun Control) Law
was upheld in [Burton v. Sills, 53 N.J. 86, 248 A.2d 521
(1968)], but the opinion in that case did not cite nor did
it have occasion to deal with N.J.S.A. 2A:151-442 which
is the specific statutory provision applicable to the
issuance of permits for the carrying of handguns.”
Twenty years after Siccardi, the New Jersey
Supreme Court would explain that:
…the most relevant definition of “justifiable
need” was set forth in Siccardi … the Court also
took notice of an internal policy of Assignment
Judges, which wisely confines the issuance of
carrying permits to … limited personnel who can
establish an urgent necessity for carrying guns
for self-protection. One whose life is in real
danger, as evidenced by serious threats or
earlier attacks, may perhaps qualify… [In re
Preis, 118 NJ 564, 571 (1990) citing Siccardi at
557.]

2

The former designation of today’s 2C:58-4 prior to recodification.

3
Since Siccardi upheld URGENT NECESSITY in 1971,
the New Jersey Attorney General’s Office, “has been on
record for a long time as opposing the carrying
privileges of any person.” [Testimony of Victoria
Bramson, Esq., Deputy Attorney General, Division of
Criminal Justice. SUBCOMMITTEE ON ADMINISTRATION
OF F IREARMS S TATUTES, ASSEMBLY J UDICIARY
COMMITTEE, New Jersey Legislature, State House
Annex, Trenton NJ 08625. Second Public Hearing,
Tuesday September 22, 1987, Page 23.]
And like Bramson, Siccardi revealed New Jersey’s
antithesis to the right to bear arms. In 1966 New
Jersey revised its Gun Control Law to include handgun
carry permits3 regardless of mode of carry. Attorney
General Sills explained in the press why he changed
the 2C:58-4 carry permit law from concealed, to all
forms of carry:
[Sills] said there is no law against walking down
the street with a weapon in your hand or on your
body as long as it isn’t concealed. He cited the
case a few years ago of a Paterson restaurant
owner who was refused a permit to carry a
concealed weapon so he strapped two pistols on
his hips, in plain view, and walked down the
street. Police stopped him and called Mr. Bergin
to find out how he should be charged. “We
couldn’t charge him with a darn thing”, Mr.
Bergin said. [Sills Demand Curbs on Sale of
Firearms, Asbury park Evening Press, Thursday
Dec. 5, 1963. Pg. 27.]

3

Formerly NJSA 2A:141-44, now 2C:58-4.

4
Prior to 1966, as long as the weapon wasn’t
concealed, there was no crime. See State v. Gratz, 86
N.J.L. 482, 92 A. 88 (1914).
Attorney General Sills, the drafter of the Gun
Control Law, explained in documented testimony in
both 1965 and 1966, why he changed the carry permit
law from concealed to all forms of carry. In 1965, to the
SENATE COMMITTEE ON THE JUDICIARY, Sills he
explained the Newark via Maryland straw purchasing
ring where handguns, without purchase permits, were
coming across New Jersey’s borders diminishing the
effect New Jersey’s laws have against criminals:
Although under present New Jersey law a
permit to carry a pistol or revolver is required,
there is no way to detect weapons which are
smuggled into New Jersey without a permit to
purchase or carry … Our experience with the
State of Maryland highlights … the urgency of
this measure. Chairman Dodd pointed out in his
opening statement … that our State police, in
cooperation with Maryland authorities, had
revealed the purchase of handguns by New
Jersey residents in that State.
These people were able to buy 65 handguns from
3 retail stores located in Aberdeen, Md. Eight of
these persons used fictitious names or
addresses, and five of the eight used the same
address … one Hector Gomez, later found to
have had a lengthy police record for such
offenses as extortion, robbery, assault, and
attempted rape, purchased 12 handguns in the

5
same store on locations within a period of 12
days and 3 more in another store….
It is apparent that … the purchases by Gomez
were made for illegal resale.
…business records indicated that he had sold …
handguns … with 29 having been purchased by
New Jersey residents.
The sales ledger of the second proprietor …
indicated …18 having been purchased by New
Jersey residents. This proprietor stated …
Hector Gomez had bought an estimated 200
handguns … in the Aberdeen area.
Records of the third establishment showed …
that 18 (handguns) having been sold to New
J e rs ey i tes. [HEARINGS BEFORE THE
SUBCOMMITTEE TO INVESTIGATE JUVENILE
DELINQUENCY OF THE COMMITTEE ON THE
JUDICIARY. US Senate, 89th Congress, First
Session. US Govt. Printing Office. Washington
1965. Hereinafter 1965 Dodd Hearings.
Testimony of AG Sills at 404-405. See Testimony
of AG Sills PL 90-618 H.R. 510, 89th Cong., 1st
Sess. (1965). As introduced and referred to the
House Committee on Ways and Means on
PROPOSED AMENDMENTS TO THE NATIONAL
FIREARMS ACT. January 4, 1965. Part 1. US
Govt. Printing Office, Washington 1965. Pg. 57.
¶3. (Hereinafter “H.R. 510 Testimony”.)].
Sills also explained the problem he was having with
mail order guns being shipped to New Jersey “with no
permits issued”:

6
Our experience in Maryland … involved the
purchase of handguns for illegal importation in
New Jersey. We have had similar problems with
dealers in California who … have been
accomplices to the mail-order sale of guns
illegally purchased and shipped into our State …
It was discovered that of the 126 guns sold and
shipped by mail by Seaport Traders Inc., of Los
Angeles, Calif., … no permits were issued for 56.
Of the 28 handguns sold and shipped by
Weapons Inc., … no permits were issued for 5.
Of the 154 guns sold and mailed by these two
outfits, 61 were sold and mailed without permits
being issued. It was also ascertained that 26
persons with criminal records were among those
who had the 61 weapons from these 2 mail-order
houses. I trust that the testimony I have offered
to the subcommittee has given some indication
of the problem we face in New Jersey. This
problem derives not only from the wanton and
indiscriminate importation and resale of lethal
weapons of all varieties which we cannot legally
control with the legislation we now have, but
also from the violation of existing laws which
cannot be prevented without Federal assistance.
[Dodd Hearings supra at 404-405; Testimony of
AG Sills; See Testimony of AG Sills H.R. 510
Testimony supra pg. 57. ¶3.]
Sills’ testimony, “there is no way to detect weapons
which are smuggled into New Jersey without a permit
to purchase or carry,” in the 1965 Dodd Hearings must
be read in tandem with Sills’ testimony in the PUBLIC
HEARING ON ASSEMBLY BILL NO. 165. Assembly

7
Chamber, State House, Trenton NJ. March, 2, 1966
(hereinafter “A-165 Debates”):
For those who wish to obtain the permits … it
will be necessary … to be fingerprinted in order
to determine if they are any of the unfit persons
described in the bill. This is the only effective
way I know of checking an individual’s
background… [emphasis added].
This was the only way for Sills to include pre-1966
purchased handguns with both the illegal Maryland
and mail order handguns into the licensing scheme.
Simply changing 2C:58-4’s wording, by removing
“concealed” from the law, Sills now insured all carried
handguns would have to run through the permit
process, and allow the Police Chief to investigate,
fingerprint and background check all applicants.
Twice in 1966, and once in 1968, Sills explained the
meaning of 2C:58-4’s “public health safety and welfare”
clause in testimony:
The main thrust of A 165 is to make it illegal to
sell or purchase pistols and revolvers in New
Jersey if the purchaser involved has a physical
defect or sickness which makes it unsafe for him
to handle firearms – Now many people have said
this bill prevents a purchaser who has a physical
defect from getting a permit. It does not say
that. It says, which defect makes it unsafe for
him to handle firearms. – also if he has ever
been confined to a mental institution or
sanitarium and cannot produce a doctor’s
certificate indicating he can safely handle a

8
firearm; if he has ever been convicted of a crime,
is an alcoholic, an habitual user of or addicted to
narcotics, goof-balls or pep pills; or he is a
subversive. In other words, standards are set
forth to determine if the issuance to a
permit to purchase or carry a pistol or
revolver would be in the interest of public
health, safety or welfare. [emphasis added.]
Mr. Sills: Well, of course, you who are legislators
know that throughout the entire [statutes], the
terms “public health” and “safety” have been
used on innumerable occasions and courts have
construed it in accordance with the intent of the
legislation. Now in this particular case, the
present law has, and we were asked to maintain,
that a person be of good reputation and good
character. Now it is very easy to for anyone to sit
down and try to construe all of the things which
would make a person of poor character or poor
reputation. One thing, for example, as I sit here
and think, might be a person who is indicted
presently for a felony and who may be out on
bail, but he has not been convicted of a crime; a
person who perhaps has been engaged in every
kind of escapade in his community for many,
many years, but was fortunate in that he
escaped the claws of the law … But as I point
out to you, the present law has these very same
words in it with respect to manufacturers and
wholesalers and we have extended it here to the
point of the granting of the permit and, as I
indicate, it would be construed in the manner in
which I have just suggested.

9
The statute ... provides that no permit or
identification card shall be issued “to any person
where the issuance would not be in the interest
of the public health, safety or welfare.” At oral
argument the Attorney General took the
position, with which we agree, that the quoted
language was intended to relate to cases of
individual unfitness, where, though not dealt
with in the specific statutory enumerations, the
issuance of the permit or identification card
would nonetheless be contrary to the public
interest. [Burton supra at 90-91 (citing Attorney
General Sills.)]
The public safety clause was designed to prevent
permits from going to the “unfit elements of society.”4
The public safety clause was not designed to claim
all 2C:58-4 applicants are dangerous in public when
carrying a handgun for self-defense. Sills is on record
telling “the fit” elements of society that they had a
legitimate right to carry a gun when selling A-165 to
the public:
“Of all people, I can’t understand your
opposition. If you’re all ‘good guys,’ you shouldn’t
be afraid to register.” Sills said. “You have a
legitimate right to own and carry a gun and

4

To understand Sills’ term “unfit elements of society,” See Burton
at 91, 93 and 105 (New Jersey’s Gun Control Law is highly
purposed and conscientiously designed toward preventing criminal
and other unfit elements from acquiring firearms while enabling
the fit elements of society to obtain them with minimal burdens
and inconveniences.)

10
know how to handle guns. I can’t understand
why the so-called ‘good guys’ are raising such
resistance.” [Sills Fights for Tougher Gun Laws,
The (Red Bank) Daily Register. March 11, 1965.
Pg. 1. Emphasis added.]
But claiming all 2C:58-4 applicants are dangerous in
public when carrying a handgun for self-defense is
exactly New Jersey’s claim today:
New Jersey has decided that this somewhat
heightened risk to the public may be outweighed
by the potential safety benefit to an individual
with a “justifiable need” to carry a handgun.
Furthermore, New Jersey has decided that it
can best determine when the individual benefit
outweighs the increased risk to the community
through careful case-by-case scrutiny of each
application, by the police and a court. See Drake
v. Filko, 724 F.3d 426, 439 (3d Cir. 2013).
New Jersey’s “decision” (according to Drake) is
diametrically opposed to Attorney General Sills who
simultaneously explained on page 5 of the A-165
Debates that: “...standards are set forth to determine if
the issuance of a permit to ... carry a pistol or revolver
would be in the interest of the public health safety and
welfare.” And in the very next sentence, “(f)or those
who wish to carry a pistol or revolver, permits will be
required as they are under present law.”
The key to understanding that New Jersey’s
permitting system is neither “longstanding” pursuant
to District of Columbia v. Heller, 554 U.S. 570, 128 S.
Ct. 2783 (2008) at page 2816-17 or “presumptively

11
lawful” per Heller’s N.26 is to investigate when the
requirement changed from “as they are under present
law” to “urgent necessity.” The first bread crumb comes
from Preis supra, where the New Jersey Supreme
Court said:
Under the Siccardi rule there must be “an
urgent necessity * * * for self-protection.” 59 N.J.
at 557, 284 A.2d 533. The requirement is of
specific threats or previous attacks
demonstrating a special danger to the
applicant’s life that cannot be avoided by other
means. Ibid.; [Preis at 571. Reilly v. State, 59
N.J. 559, 562, 284 A.2d 541 (1971); In re
Application of X, 59 N.J. 533, 534-35, 284 A.2d
530 (1971).]
Preis demonstrates that URGENT NECESSITY and the
requirements of specific threats (plural) and previous
attacks (plural) came from Siccardi in 1971.
Testimony in Siccardi reveals that:
(s)everal police chiefs and a representative of the
State Police testified as expert witnesses before
the County Court; they all supported a highly
restrictive approach in the granting of carrying
permits. Thus Chief Roy of the Elizabeth Police
Department acknowledged that his standards of
“need” were changing “toward the side of more
stringency.” [Siccardi at 550.]
But the question becomes, more stringent than what?

12
In the previous Preis citation, Preis cited Reilly
where Drs. Reilly, Baron, Bernstein and LaBate all
held carry permits prior to 1970:
In earlier years ... Dr. John J. Reilly ... held
carrying permits but his 1970 application for a
carrying permit was denied because of an
insufficient showing of need. [Reilly at 560.]
Dr. Stuart Baron had carrying permits in 1968
and 1969 but his 1970 application was denied ...
the County Judge concluded that he had not
made a sufficient showing of need under
currently governing principles. [Id. at 561.
Emphasis added].
Dr. Michael Bernstein ... held carrying permits
since 1960. His 1970 application was denied
because of an insufficient showing of need. [Id.
at 561.]
Dr. Philip LaBate ... held carrying permits in
1968 and 1969 but his application for a 1970
permit was denied because of an insufficient
showing of need. [Id. at 561-562.]
To answer “more stringent than what?”, it is important
to notice “currently governing principles” in Dr. Baron’s
paragraph above. NJSA 2C:58-2.6 requires that:
The Attorney General, in accordance with the
provisions of the “Administrative Procedure
Act,” P.L.1968, c.410 (C.52:14B-1 et seq.), shall
promulgate rules and regulations to effectuate
the purposes of this act.

13
But there is nothing in the New Jersey Register to
document that any change in the issuance standards
took place. In fact, the NJ Register of December 25th,
1969 13:54-23’s Limitations on issuance simply reads:
A permit to carry a pistol or revolver shall not be
issued to any person who is subject to any of the
disabilities which would prevent obtaining a
permit to purchase a pistol or revolver or a
firearms purchaser identification card as
provided in this chapter. [1 N.J.R 30.]
The 1969 Register stated in 13:54-21 Application for a
Permit to Carry a Pistol or Revolver that:
(e)very person applying for a permit to carry a
pistol … shall furnish such information and
particulars as set forth in the application form
designated SBI 92… [1 N.J.R 30, Emphasis
added].
When Sills testified in the Dodd Hearings a year
earlier, Sills included form SBI 92 as Exhibit No. 20.
There was simply no requirement of URGENT
NECESSITY, “specific threats” or “previous attacks.”
Line number (3) simply reads, “THE REASON OF
SUCH APPLICATION IS.” [Dodd Hearings at 149.]
Mathematically worse, URGENT NECESSITY did not
show up in the Administrative Code until twenty years
after Siccardi in 1991. Not as a rule of the Attorney
General that followed the “Administrative Procedure
Act,” but as a direct result of the 1990 New Jersey
Supreme decision in Preis.

14
NJAC 13:54-2.3 reiterates the statutory criteria
which must be satisfied in order to obtain the
issuance of a permit to carry a handgun. This
and other amendments in subchapter 2 reflect
the standards enunciated by the Supreme Court
decision in In re Preis, 118 NJ 564 (1990). [23
N.J.R 2251.]
The lack of adherence to the Administrative Procedures
Act not only casts doubt on any claim by the State that
their regulation is “presumptively lawful,” but this
twenty-year timeline debunks any “longstanding” claim
as well.
Further research of Siccardi, reveals that the
URGENT NECESSITY RULE was created by the
investigation unit of the State Police:
Sergeant Klauss heads the investigation unit of
the State Police ... (h)e detailed the action taken
by his department in connection with permit
applications ... (h)e noted that “stricter measures
concerning the issuance of permits are being
applied” [Siccardi at 551.]
Siccardi simultaneously explained that the
investigation unit’s URGENT NECESSITY requirement
came from a law review, though oddly enough, that was
a recommendation for ownership of a handgun and
was printed three years after A-165 became the Gun
Control Law:
The National Commission recommended federal
legislation to encourage the establishment of
state licensing systems for handguns with
authority in each state to determine for itself

15
what constitutes “need” to own a handgun
… the Commission recommended that
“determinations of need be limited to police
officers and security guards, small businesses in
high crime areas, and others with a special need
for self-protection.” [Siccardi at 553. Citing
Final Report, National Commission on the
Causes and Prevention of Violence, p.181
(1969). Emphasis added].
It is worthy to note an editor of the Final Report
was Franklin E. Zimring. In a 1981 New York Times
article, Zimring was quoted as saying what he does is
similar to “gypsy fortune telling”:
Mr. Zimring also doubted that any study could
determine whether a particular law was a
deterrent to violent crime. “This whole notion of
cause and effect is suspect.” He said.
“Criminologists are very much like forecasting
economists and gypsy fortune tellers. We can’t
explain gun-related behavior, so how can we say
what has affected it, either up or down?”
[Knight, Michael. “Studies of Gun Law Divided
on Impact” New York Times. [New York] 21,
January 1981: Page A17.]
Essentially, the State’s URGENT NECESSITY RULE came
from a criminologist who admitted ten years later that
his recommendations were “suspect.”
Siccardi revealed how the “URGENT NECESSITY RULE”
of the investigation unit by-passed the Administrative
Procedures Act and still made it into the
Administrative Code:

16
the Assignment Judges undertook ... the
furtherance of a strict policy which wisely
confines the issuance of carrying permits to
persons specifically employed in security work
and to such other limited personnel who can
establish an urgent necessity for carrying
guns for self-protection. One whose life is in real
danger, as evidenced by serious threats or
earlier attacks, may perhaps qualify…
[Siccardi at 557. Emphasis added]
According to Siccardi, the Assignment Judges
“furthered” the investigation unit’s “stricter measures
concerning the issuance of permits”.
Siccardi’s rational for the Assignment Judges’
creation of the URGENT NECESSITY RULE was that in
2A:151-44, Judges would study “expert materials” and
arrive at Carry Permit “policy formations.”
In N.J.S.A. 2A:151-44 the Legislature made
provision for other persons who could make a
sufficient showing of “need,” leaving to the
Judges the required policy formulations as to
what constitutes “need.” The Legislature was
fully aware that these formulations would
represent the conscientious determinations of
the Judges arrived at on the basis of their study
of such expert materials as are available within
and without our State. [Siccardi at 557]
As NJSA 2C:58-2.6 makes the Attorney General,
and not the Assignment Judges, the rule promulgator,
when the URGENT NECESSITY RULE entered the
Administrative Code in 1991, it did so by-passing the

17
Administrative Procedures Act. As the Assignment
Judges’ “furtherance” was not ‘in accordance with the
provisions of the “Administrative Procedure Act,”’ the
URGENT NECESSITY RULE was never “presumptively
lawful” until the Legislature entered it into the Statute
in 2018. Which in turn means, THE “URGENT NECESSITY
RULE” is not “longstanding” under Heller.
Likewise, as THE URGENT NECESSITY RULE was a
“stricter measure” of the investigation unit, and
“furthered” by the Assignment Judges, THE “URGENT
NECESSITY” RULE was never legislative intent until
2018.
2. The theory of preventing the “known and
serious dangers of misuse and accidental use”
was not Legislative Intent.
The theory of preventing the “known and serious
dangers of misuse and accidental use” by limiting
permits to the “fit elements of society” was not a
legislative goal in 2C:58-4. [See Burton supra at 105 in
FN3] On page 558, Siccardi explained the prevention
of “misuse and accidental use” theory came from the
Police Chief testimony stating that:
The grant of a permit to him to carry a concealed
handgun on his person or in his automobile
would, AS ALL OF THE EXPERT TESTIMONY
INDICATES, afford hardly any measure of selfprotection and would involve him in the known
and serious dangers of misuse and accidental
use. [Siccardi at 558. Emphasis added].

18
The Police testimony in Siccardi reads as follows:
Chief Roy of the Elizabeth Police Department ...
noted that “what happens is that the criminal
selects his particular time when the victim is
unaware of the attack. It is a sudden, very swift
type of attack where the individual is caught off
guard and has no opportunity to get his weapon
to use it and this is the reason why the
individual, even if he had a weapon, could be
just as much a victim of a robbery as an
individual who did not have a weapon. Siccardi
at 550.
Chief Mass of the Shrewsbury Police
Department ... considered that carrying the gun
has no deterrent effect and noted that the crime
is usually “over and done with” before the person
carrying the permitted weapon can effectively
react. Id.
Chief Haney of the Cranford Police Department
knew of no instance in Cranford where a
permitted gun was used to thwart a holdup or
protect the permittee; he considered that the
private person’s possession of the concealed
weapon did not serve at all as a deterrent to
crime. Id. at 551.
Sergeant Klauss ((of) the investigation unit of
the State Police) not(ed) that the concealed
weapon does not operate as a deterrent and that
attacks happen with “so much suddenness that
they would have very little chance to use the
firearm in the event that they were called upon

19
to do it.” He stressed that “historically” private
people who attempt to thwart robberies through
the use of permitted weapons usually wind up
with serious or fatal injuries to themselves. Id.
at 551-552.
“(T)he known and serious dangers of misuse and
accidental use” is not just an isolated clip in Siccardi.
The relevant cases of the day all read Siccardi the
same way and prove that the “known and serious
dangers of misuse and accidental use” came from the
Police Chief testimony in Siccardi:
-

“… possession of handguns in the streets
would, as the expert testimony referred to in
Siccardi indicates, furnish hardly any
measure of self-protection and would involve
them in the known and serious dangers of
misuse and accidental use. Reilly v. State, 59
N.J. 559, 562 (1971).

-

[h]e has never been assaulted or threatened
and, as the expert testimony referred to in
Siccardi indicates, his possession of a
handgun in the streets would furnish hardly
any measure of self-protection and would
involve him in the known and serious
dangers of misuse and accidental use.” In re
“X”, 59 N.J. 533, 535 (1971).

20
Siccardi then explained that the Police Chief
testimony was the same as Zimring’s5 Staff Report
(which):
found that private possession of a handgun is
rarely an effective means of self-protection; and
so far as the carrying of handguns is concerned,
they noted that “no data exist which would
establish the value of firearms as a defense
against attack on the street” though “there is
evidence that the ready accessibility of guns
contributes significantly to the number of
unpremeditated homicides and to the
seriousness of many assaults.” Siccardi at 552.
Zimring advised on page 66 of the Staff Report,
where this, “guns are not effective” and “crimes are so
“sudden” theory (the Siccardi Police Chiefs’ position)
came from. Zimring cites at note 14, “Verne Bunn” from
the Small Business Administration and their
publication Crime Against Small Business. Bunn
wrote:
Because of the sudden, almost violent action of
robbery, the victims are often taken by surprise
and off their guard. The typical robbery occurs in
a very short period of time---less than a minute.
The victim generally finds it difficult to relate
details of the robbery accurately or reliably to
the police.

5

Zimring – the individual who admitted in the New York Times
that his job was suspect and like that of a gypsy fortune teller.

21
Almost universally, police departments counsel
against the victim of a robbery taking any action
which might antagonize the robber. Instead, he
is cautioned to cooperate fully with the robber’s
wishes, but at the same time, noting factors
relating to the robbery that will be useful to the
police---description, escape route, property
taken, etc.” See Crime Against Small Business:
A Report of the Small Business Administration.
April 3, 1969. Senate Document No. 91-14.
Pg. 242.
Zimring’s Final Report took Verne Bunn’s words and
re-wrote them:
Almost invariably, police departments counsel
against the victim of the robbery taking any
action which might antagonize the robber.
Instead he is cautioned to cooperate fully with
the robber’s wishes .... The typical businessman
is neither adequately trained nor prepared
mentally to face up to the robber. See Zimring’s
Final Report at 66.
The footnotes reveal the entire Police Chief testimony,
preventing the “known and serious dangers of misuse
and accidental use,” and thus the mighty rock upon
which the State rests its URGENT NECESSITY RULE,
came not from the legislature, but Verne A. Bunn, who
was a Management assistance officer in the Small
Business Administration’s Kansas City regional Office.
See Crime against small business, pgs. XI and 242.
New Jersey tries to maintain that: “(t)he Legislature
conditioned the issuance of a carry permit based its

22
“longstanding ‘aware[ness] of the dangers inherent in
the carrying of handguns and the urgent necessity for
their regulation,’ a necessity attributable to the ‘serious
dangers of misuse and accidental use,’” See State ex rel.
Duncanson, No. A-3318-14T2, 2016 N.J. Super. Unpub.
LEXIS 2222, at *3 (Super. Ct. App. Div. Oct. 7, 2016)
(emphasis added). However, the government is citing
erroneous history that has been re-treaded repeatedly:
-

[w]e cannot conclude that the [Second]
Amendment or the Court’s recent decisions
require this State to dismantle its statutory
scheme addressing the risks of misuse and
accidental use [of firearms] in public places
devised long ago and developed over many
years. This scheme is crafted to burden the
exercise of the right to use handguns for
lawful purposes as little as possible, without
abandoning this effort to maintain order and
safety in public places. See In re Winston, 438
N.J. Super. 1, 10 (Super. Ct. App. Div. 2014).

-

The sole reason articulated by New Jersey in
this case is that the justifiable need
requirement is “designed to combat the
dangers and risks associated with the misuse
and accidental use of handguns.” See Drake
v. Filko, 724 F.3d 426, 453 (3d Cir. 2013)
(Hardiman, J., dissenting).

-

New Jersey has asserted that the interests
served by the Handgun Permit Law include
“combating handgun violence and combating
the dangers and risks associated with the
accidental and misuse of handguns” and

23
“reducing the use of handguns in crimes.”
See Piszczatoski v. Filko, 840 F. Supp. 2d
813, 835 (D.N.J. 2012).
3. Any New Jersey claim that their URGENT
NECESSITY RULE is “presumptively lawful” and
“longstanding” is a mathematic impossibility.
It is historically significant to recognize that A-165,
the bill that became New Jersey’s Gun Control Law,
was drafted by Attorney General Sills. See Hearings
before the Committee on Ways and Means, 89th
Congress. First Session on Proposed Amendments to
the National Firearms Act. July 1965. Part 1. US Govt.
Printing Office, Washington 1965. Pg. 408. (“Assembly
Bill No. 165 is the much-publicized bill developed by
the Office of State Attorney General Arthur J. Sills.”)]
In the A-165 Debate, Attorney General Sills stated:
the history of my office to draft suitable
firearms controls precedes by many months
that tragic day in Dallas of November 22, 1963.
This problem was brought to my attention as
early as 1963 by the prosecutors of this State.
See A-165 Debate at 3. Emphasis added.
The newspapers of the time period also printed that
Sills drafted the Gun Control Law:
Atty. Gen. Arthur J. Sills yesterday called for
stringent new regulations governing the sale,
purchase and possession of firearms. Mr. Sills
said his office and the state police have
been studying the problem of easy access to
firearms since last March. However, he said,
“It always seems to take a catastrophic situation

24
to make people act in certain fields.” He reffered
to the death of President John F. kennedy, who
was assasinated with a mail-order rifle …
Sweeping revision of existing laws
governing firearms was recommended to
Mr. Sills last month by a study committee of
three county prosecutors. See Sills Demand
Curbs on Sale of Firearms, Asbury park Evening
Press, Thursday Dec. 5, 1963, Pg. 27. Emphasis
added.
Attorney General Sills presented an affidavit in New
Jersey Supreme Court and stated that he was closely
involved “in the drafting and presentation of the Gun
Control Law...” [Serv. Armament Co. v. Hyland, 70 N.J.
550, 560, 362 A.2d 13 (1976).]
The attorney general said he has an obligation
to draft and introduce the measure because
of the nature of his office. The bill is an
outgrowth of recommendations of Gov.
Richard J. Hughes. The governor has said
that the assassination of John F. Kennedy
“emphasized the need for reconsideration of
the restrictions that should be imposed on
people who buy guns.” The bill would:
---Require the registration of all new
firearms with police officials ***
---Allow local police chiefs to refuse permits
to persons with mental and physical
handicaps that would make it unsafe for
them to handle firearms.

25
---Refuse permits to convicted criminal, drug
addicts, alcoholics, or members of
subversive organizations. [Sills Fights for
Tougher Gun Laws. The Daily Register.
Thursday, March 11,1965. Pg. 2.]
New Jersey’s Gun Control Law was ruled
constitutional because the New Jersey Supreme Court
characterized the Gun Control Law as:
highly purposed and conscientiously designed
toward preventing criminal and other unfit
elements from acquiring firearms while enabling
the fit elements of society to obtain them with
minimal burdens. (Service Armament Co. at 559)
(additional citation omitted).
The Gun Control Law was enacted in 1966. [See Burton
at 89 (citing L. 1966, c. 60; N.J.S. 2A:151-1 et seq.)] It
is impossible that the Gun Control Law was “highly
purposed” or “conscientiously designed” if Sills drafted
it from 1963 to 1966, unknowingly waiting until a
“Management assistance officer in the Small Business
Administration’s Kansas City regional Office”
published a report for the Small Business
Administration, three years later on April 3, 1969.
It is even more historically inaccurate to suggest
that New Jersey’s “highly purposed and conscientiously
designed” Gun Control Law was going to wait for
Franklin Zimring to pick up Verne A. Bunn’s Small
Business Report and reprint citations of it, as his
National Commission recommendations in late 1969.
[See Siccardi at 552 (citing Final Report, dated 1969.]

26
Worse, it contradicts Burton precedent to assume
that the Gun Control Law, as A-165, was so unconscientiously designed by Sills, that the carry
permit statute within the law was going to have to rely
on Zimring’s National Commission’s recommendation
on the owning of handguns to establish its 2C:58-4
carry requirements:
The National Commission recommended federal
legislation to encourage the establishment of
state licensing systems for handguns with
authority in each state to determine for itself
what constitutes “need” to own a handgun.
Final Report, National Commission on the
Causes and Prevention of Violence, p. 181 (1969).
[Siccardi at 552. Emphasis added].
If the constitutionality of 2C:58-4 was upheld in 1971
because the law was, “highly purposed and
conscientiously designed,” in 1966 and the time line of
the investigation unit, the Assignment Judges,
Zimring’s Final Report and Verne Bunn just proved
that the URGENT NECESSITY RULE was not highly
purposed or conscientiously designed, until 1969, then
the constitutionality of “urgent necessity” is now at
odds with the Second Amendment.
CONCLUSION
This Court should grant Mr. Cheeseman’s petition
for a writ of certiorari.

27
Respectfully submitted,
Stephen D. Stamboulieh
Counsel of Record
Stamboulieh Law, PLLC
P.O. Box 4008
Madison, MS 39130
(601) 852-3440
Stephen@sdslaw.us
Alan Alexander Beck
Law Office of Alexander Beck
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com
Counsel for Amicus Curiae

